MCI Voice and Video Contract--
Price Warranty
                       Evaluation Report No. 99-009
                           December 20, 1999




Office of Congressional Relations and Evaluations
Office of Inspector General
Federal Deposit Insurance Corporation                                                        Congressional Relations and Evaluations
Washington, D.C. 20434                                                                                   Office of Inspector General


   DATE:                         December 20, 1999

   MEMORANDUM TO:                Michael J. Rubino
                                 Associate Director, Acquisition and Corporate Services Branch


   FROM:                         Stephen M. Beard
                                 Director, Office of Congressional Relations and Evaluations

   SUBJECT:                      MCI Voice and Video Contract—Price Warranty (EVAL-99-009)

   This report presents the results of one aspect of the Office of Congressional Relations and Evaluations’ review of the subject contract. Our
   office is performing this review because we found billing discrepancies with another FDIC telecommunications contract that has since
   expired. The objectives of our review are to: (1) determine whether MCI WorldCom (MCI) was billing FDIC according to the terms of the
   contract—including the price warranty clause, and (2) assess whether FDIC was effectively monitoring and efficiently administering the
   contract. This report addresses a portion of objective 1—the price warranty clause—as it pertains to the final 2 years of the contract. We will
   continue to perform evaluation work related to this contract and expect to issue a separate report on the results at a later date.

   On September 27, 1999, MCI certified in a letter to FDIC that its prices complied with the contract price warranty and that no price
   adjustment was necessary for option year 3 of the contract. On October 14, 1999, we requested documentation from MCI to support its
   pricing certification. On December 7, 1999, MCI provided a letter to FDIC’s contracting officer confirming the September 27, 1999
   certification and reiterating that the current contract pricing was in compliance with the price warranty. However, as of the date of this
   report, MCI has not provided us documentation to support its certification.

   We presented the preliminary results of our analysis of contract pricing to FDIC in early November 1999. We found the long distance
   voice prices that MCI proposed for option year 3 of its contract with FDIC did not appear to be competitive with prices offered to other
   MCI customers under General Services Administration (GSA) contracts. Thus, MCI’s proposed prices did not conform to the price
   warranty clause of the contract. We estimated that FDIC would save between $63,700 to $88,300 per month, or from $1.53 million to
   $2.12 million, over the remaining 2 years of the contract if MCI honored the terms of the price warranty. Such a reduction would achieve
   program savings of 35 to 49 percent, which we would report as funds put to better use.
November 24, 1999, MCI proposed new pricing to the Division of Information Resources Management. Assuming that MCI honored the
proposed pricing for the remaining 2 years of the contract, we estimate that FDIC would save $32,825 a month, or about $787,800. While the
proposed pricing would reduce program costs by 18 percent, the proposed pricing still did not meet the requirements of the contract price
warranty. Consequently, we recommended that FDIC pursue adjustments by MCI to the contract prices to conform to the terms of the price
warranty.

We provided the Acquisition and Corporate Services Branch (ASCB) a draft of this report on December 2, 1999. ACSB provided a written
response to the draft report on December 16, 1999. Management agreed with our recommendation. ACSB’s written response is included in its
entirety as Appendix I of this report. Appendix II presents our assessment of management’s response and shows that we have a management
decision for the recommendation.

We also added information to the final report to reflect evaluation work that we performed related to the price warranty after we issued the
draft report. We provided management the opportunity to review these revisions before we issued the final report.

In addition to pursuing MCI’s conformance with the price warranty, management indicated it was going to perform a comparative analysis of
the cost and services of the current MCI contract and the GSA’s Federal Technology Services 2001 (FTS2001) contract. On
December 17, 1999, ACSB issued a letter to MCI communicating the Corporation’s expectation that it receive pricing equivalent to that
offered under the FTS2001 contract. In addition, ACSB formed a task force to conduct a comparative analysis of the two contracts. ACSB’s
response, together with the actions it has already taken, provided the requisites of a management decision.

As noted previously, our draft report estimated funds put to better use of $1.53 million to $2.12 million. Management’s response had no
questioned costs or recovery amount noted. We discussed this with management officials and they indicated that the $0 amount reflected the
unknown outcome of its corrective actions. Accordingly, our final report indicates that funds put to better use cannot be determined at this
time. Should ACSB’s actions result in savings, we will report those monetary benefits in our Semiannual Report to the Congress during the
appropriate reporting period.
Table of Contents
n   Evaluation Objectives                                  4
n   Scope of Evaluation                                    5
n   Methodology                                            6
n   Results in Brief                                       8
n   Background: FDIC Long Distance Contract
    with MCI                                               9
n   Price Warranty Clause                                 10
n   Background: FTS2001 Contract                          19
n   Cost Comparison of Alternatives                       20
n   Summary Comparison of Prices                          22
n   Pricing Structure Comparison                          23
n   FTS2001-- MCI Prices                                  24
n   FTS2001-- Sprint Prices                               26
n   Reasonableness Testing                                28
n   Conclusions                                           33
n   Recommendation                                        35
n   Corporation Comments and OIG Evaluation               36
n   Glossary                                              38
n   Appendix I: Corporation Comments                      41
n   Appendix II: Management Response to Recommendations   44
Evaluation Objectives

n   The objectives of our review are to:

     – Determine whether MCI WorldCom (MCI) is billing FDIC
       according to the terms of the contract--including the price
       warranty clause.

     – Assess whether FDIC is effectively monitoring and efficiently
       administering the contract.

n   This report addresses a portion of objective 1—the price warranty
    clause—as it pertains to the final 2 years of the contract. We will
    continue to perform evaluation work related to this contract and
    expect to issue a separate report on the results at a later date.

                                                                          4
Scope of Evaluation

                                            Composition of 1999 Contract
n   Our evaluation focused on three
                                                       Fees
    contract services:
                                                                              Inbound
     – Outbound                                                                 40%
                                      Outbound
     – Inbound (800)                    31%

     – Calling Card

n   The costs for these services
                                        Fax/Video
    represented 91% of the contract        3%
                                                                           Outbound/
    fees.                                        Trunks                     Inbound
                                                               Calling     Surcharge
                                                  5%
                                                                Card          9%
                                                                11%



                                      Note: Percentages do not total 100 due to rounding.



                                                                                            5
Methodology

n   We met with the General Services Administration (GSA) Federal
    Technology Service (FTS) representatives. GSA provided FTS2001
    prices for MCI and Sprint.

n   We interviewed Acquisition and Corporate Services Branch (ACSB)
    and Division of Information Resources Management (DIRM) officials
    and reviewed MCI invoices and electronic call detail reports.

n   We held telephone and e-mail discussions with Sprint
    representatives. Sprint provided average Sprint FTS2001 prices and
    clarifications about specific Sprint FTS2001 prices.




                                                                         6
Methodology


n   We researched the FTS2001 contract and pricing structure on the
    Internet.

n   We conducted our field work during September and October 1999 in
    accordance with the President’s Council on Integrity and Efficiency’s
    Quality Standards for Inspections.




                                                                            7
Results in Brief

n   The long distance voice prices that MCI proposed for option year 3 of
    its contract with FDIC did not appear to be competitive with prices
    offered to other MCI customers under GSA schedule contracts. Thus,
    the prices did not conform to the terms of the contract price warranty.

n   We estimated that FDIC could save between $63,700 to $88,300 per
    month, or from $1.53 million to $2.12 million, over the remaining
    2 years of the contract if MCI honored the terms of the price warranty.
    Such a reduction would achieve program savings of 35 to 49 percent.

n   Subsequent to our analysis, MCI proposed new contract pricing.
    Assuming MCI honored the proposed pricing for the remaining 2 years
    of the contract, we estimate that FDIC would save $32,825 a month, or
    about $787,800. While the proposed pricing would achieve a program
    cost reduction of about 18 percent, MCI’s proposed prices still do not
    conform to the terms of the price warranty.
                                                                              8
Background: FDIC Long Distance Contract
with MCI

n   Effective date: November 1, 1996.

n   Term: one base year, four 1-year options.

n   Scope: nationwide voice and video long distance services--including
    outbound, inbound (800), trunks, calling cards, video
    teleconferencing, fax, and dial-up data services.

n   Fees: not to exceed approximately $3 million annually.




                                                                          9
Price Warranty Clause

n   Section C, Article VII


    “...Contractor warrants that the prices offered for the goods and
    services to be provided under this Contract are no higher than any
    price charged to any other customer, including any governmental
    instrumentality, purchasing the same or substantially similar goods
    and services in like or similar quantities under similar conditions or
    otherwise available under a General Services Administration (GSA)
    schedule or contract during the preceding sixty (60) days (the “Price
    Warranty”). The Contractor hereby agrees that the prices offered for
    the annual options (i.e., Option Year 1 through Option Year 4), if
    exercised, shall be adjusted to conform with the terms of the Price
    Warranty...


                                                                             10
Price Warranty Clause

n   Section C, Article VII (Continued)


    “...but in no event shall the prices exceed the prices offered (as listed
    in the Price Schedule) for the annual options. Upon receipt of the
    FDIC’s notice to extend for any annual option, as the case may be,
    the Contractor shall provide to the FDIC Contracting Officer within
    thirty (30) calendar days a preliminary schedule of pricing that
    conforms to the format of the Price Schedule, including any
    modifications thereto. The Contractor agrees to revise such
    preliminary schedule to coincide with the effective date of any annual
    option in order to satisfy all terms of the Price Warranty.”




                                                                                11
Price Warranty Clause

n   Section C, Article II, of the contract incorporated by reference the
    contents of MCI’s August 29, 1996 proposal, as modified by its
    clarifications and revisions dated October 14 and 23, 1996.

n   MCI’s original proposal and revised proposal, dated October 3, 1996,
    included the following language for item 2.a.2, Article VII – Price
    Warranty and Pricing of Work Orders:

        “MCI will comply with the Price Warranty with the understanding
        that this Article applies only to the same services, specifications,
        scope of work and terms and conditions that are set forth in the
        Solicitation. Our proposal includes MCI’s Price Schedule (“Price
        Schedule”) which incorporates tariff telecommunications services.”


                                                                               12
Price Warranty Clause

n   The contract proposal file indicates that in mid-October 1996 FDIC
    and MCI discussed the price warranty language further and MCI
    agreed to submit clarifying information for the price warranty clause.

n   MCI’s submitted a second revised proposal, dated October 23, 1996,
    which included the following for item 2.a.2, Article VII – Price
    Warranty and Pricing of Work Orders:

        “MCI will comply with the Price Warranty with the understanding
        that the clause will be limited to sales by MCI’s Government
        Markets and that the parties will negotiate adjustments, if any, in
        good faith.”



                                                                              13
Price Warranty Clause

n   We contacted a former FDIC employee who was involved in the
    proposal discussions with MCI. The employee also negotiated and
    drafted the price warranty language. The employee confirmed that
    both parties agreed to the “…otherwise available under a General
    Services Administration (GSA) schedule or contract …” price warranty
    language to allow for future price warranty comparisons to FTS
    contracts, regardless of the supplier--in this case, MCI or Sprint under
    FTS2001. The former employee noted that MCI marketed its ability to
    offer pricing better than FTS during the 1996 solicitation of the FDIC
    contract.

n   The former employee stated the intent of the “otherwise” was to
    remove the “...same or substantially similar goods and services in like
    or similar quantities under similar conditions…” price warranty caveat
    when making comparisons to FTS contracts.
                                                                               14
Price Warranty Clause

n   Finally, the former employee clarified that MCI added the language
    “...limited to sales by MCI’s Government Markets…” because MCI was
    concerned with the prospect of certifying pricing for the entire MCI
    corporation. MCI representatives concluded that it would be
    unreasonable for MCI Government Markets to know the specifics of
    contracts between MCI commercial divisions and other clients.




                                                                           15
Price Warranty Clause

n   On September 27, 1999, MCI certified in a letter to FDIC that its
    prices conformed with the contract price warranty and that no price
    adjustment was necessary for option year 3 of the contract.

n   On October 14, 1999, we requested documentation from MCI to
    support its pricing certification.

n   We presented the preliminary results of our analysis of contract
    pricing to DIRM and ACSB in early November 1999.

n   On November 22, 1999, MCI e-mailed proposed reduced contract
    pricing to DIRM.



                                                                          16
Price Warranty Clause

n   On December 7, 1999, MCI sent a letter to FDIC’s Contracting Officer
    confirming that MCI’s pricing complied with the requirements of the
    price warranty clause of the contract and that no price adjustment was
    necessary for option year 3 of the contract. MCI offered the following
    rationale for its price warranty decision:

       “We base this on the fact that we know of no other government or
       commercial contract that provides the same or substantially
       similar services (same specifications, scope of work, bundle or
       services, etc.) in like or similar quantities under similar conditions,
       as defined by the price warranty clause of the Contract.”

n   However, MCI still did not provide documentation supporting its price
    warranty certification. MCI’s letter also included a table presenting
    pricing under FDIC’s contract, MCI’s Tariff number 7, and FTS2001.
    The table appears on the following page.
                                                                                 17
Price Warranty Clause

Figure 1: MCI Price Comparison Chart

                                       n   The FDIC and FTS2001
                                           pricing presented in Figure 1
                                           agree with the pricing
                                           presented in our report.

                                       n   On December 10, 1999, MCI
                                           contacted FDIC’s
                                           Contracting Officer and
                                           offered to implement the
                                           proposed pricing originally
                                           delivered by e-mail on
                                           November 22, 1999.



                                                                           18
Background: FTS2001 Contract


n   GSA awarded the FTS2001               n   Year 2 of the contract
    contract to MCI and Sprint. The           began October 1, 1999.
    contract began in February 1999.
                                          n   We looked at FTS2001
n   It is an 8-year contract with final       prices because our contract
    year prices lower than $.01 per           specifically mentioned GSA
    minute                                    for price warranty
                                              purposes.




                                                                            19
 Cost Comparison of Alternatives

 n      Table 1 presents prospective, option year 3 estimated monthly costs
        using FDIC’s 1999 average monthly usage, FDIC’s existing prices
        with MCI, FTS2001 prices available from MCI, and the proposed
        contract pricing that MCI provided to DIRM on November 22, 1999.
        Table 3 presents the prices that we used for our calculations.

          Table 1: Estimate of MCI Monthly Costs for Option Year 3
Service           Existing        MCI             Difference:      Proposed             Difference:
                FDIC Contract    FTS2001      Existing FDIC –vs- FDIC Contract    Existing –vs- Proposed
                   Prices         Prices        MCI FTS2001         Prices        FDIC Contract Prices
Outbound               $65,973      $40,877              $25,096        $53,512                     $12,461

Inbound                 90,228       58,502               31,726         76,275                      13,953

Calling Cards           25,490       18,537                6,953         19,079                       6,411

Total                 $181,691     $117,916              $63,775       $148,866                     $32,825


                                                                                                              20
Cost Comparison of Alternatives

n   Table 2 presents prospective, option year 3 estimated monthly costs
    using FDIC’s 1999 average monthly usage, FDIC’s existing prices
    with MCI, and FTS2001 average Numbering Plan Area/Exchange
    Area (NPA/NXX) based prices from Sprint. Table 3 presents the
    prices that we used for our calculations.

       Table 2: Estimate of Monthly Costs for Option Year 3
       Service         Existing FDIC       FTS 2001       Difference: Existing
                       Contract Prices    Sprint Prices    FDIC –vs- Sprint
       Outbound                 $65,973         $32,407                 $33,566


       Inbound                   90,228          46,782                  43,446


       Calling Cards             25,490          14,162                  11,328


       Total                   $181,691         $93,351                 $88,340


                                                                                  21
Summary Comparison of Prices

   Table 3: Prices Used in Table 1 & Table 2
 Type of Service                    Existing FDIC         FTS 2001       Proposed FDIC       FTS 2001 w/      Pricing
                                    Contract w/ MCI       w/ MCI         Contract Prices     Sprint (1)       Method
 Outbound
 Dedicated to Dedicated                             .04         .0216                .035            .0152    Per Minute
 Dedicated to Switched                             .065        .04215                .055              .034   Per Minute
 Switched to Dedicated                             .065        .04215                .055            .0337    Per Minute
 Switched to Switched                               .10         .0627                .065            .0525    Per Minute

 Inbound (800)
 Inbound to Dedicated                              .065        .04215                .055            .0337    Per Minute
 Inbound to Switched                                .10         .0627                .065            .0525    Per Minute

 Calling Card
 Calling Card to Dedicated                         .065        .04215                .055            .0337    Per Minute
 Calling Card to Switched                           .10         .0627                .065            .0525    Per Minute
 Access Charge/ Authorization                       .25            .27                 (2)             .16    Per call
 Code
 Access Charge/Operator- Assisted                   (2)          1.62                  (2)             .81    Per call
 Authorization

     Notes:
     1.   Postalized off-net rate used in calculation to be conservative.
     2.   We have not yet obtained this information.
                                                                                                                           22
Pricing Structure Comparison

  Table 4: Matrix of Pricing Structure Components
  FDIC/MCI Contract       FTS2001 MCI                  FTS2001 Sprint

  Postalized per minute   Postalized per minute        Price comprised of three
  price.                  price comprised of three     separate charges:
                          separate charges:            • Originating access,
                          • Originating access,        • Transport,
                          • Transport,                 • Terminating access.
                          • Terminating access.

  Same price regardless   Same price regardless        Access charges depend
  of origination or       of origination or            on NPA/NXX.
  termination of call.    termination of call.

  Same price regardless   Same price regardless        Postalized price for calls
  of whether call is      of whether call is to/from   to/from non-FTS number
  to/from a non-MCI       a non-FTS number (Off-       (Off-Net).
  number.                 Net).


                                                                                    23
FTS2001--MCI Prices

n   In September 1999, GSA provided a CD ROM containing detailed MCI
    FTS2001 pricing. The CD ROM-based prices appear in Table 6 on the
    following page. We used the CD ROM-based pricing for our
    calculations in Table 1, on page 12.
                                      Table 5: MCI Per Minute Rates
n   On October 20, 1999, we             Access Type           10/20/99          11/22/99
    met with GSA to discuss                                 FTS 2001 MCI     Proposed FDIC
                                                            Quoted Prices    Contract Prices
    FTS2001. In anticipation of
                                   Dedicated to Dedicated            .0216               .035
    our meeting GSA obtained       Dedicated to Switched              .042               .055
    FTS2001 pricing from MCI       Switched to Dedicated              .042               .055
    which appears in Table 5.      Switched to Switched               .062               .065



n   On November 22, 1999, MCI sent an e-mail to DIRM proposing new
    per minute voice rates for FDIC’s long distance contract. Those rates
    also appear in Table 5.
                                                                                                24
FTS2001--MCI Prices

   Table 6: MCI FTS2001 CD ROM-Based Prices
   Type of Call                                  Origination        Transport      Termination       Total
                                                 Charge (1)         Charge         Charge (1)        Charge for
                                                                                                     Call (2)

   Outbound, Inbound, Calling Card

   Dedicated to Dedicated                                       0         .0216                  0           .0216

   Dedicated to FTS Switched                                    0        . 0216            .02055           .04215

   FTS Switched to Dedicated                              .02055          .0216                  0          .04215

   FTS Switched to FTS Switched                           .02055         . 0216            .02055            .0627

   Dedicated to Non-FTS Switched                                0         .0216            .02055           .04215

   Non-FTS Switched to Dedicated                          .02055         . 0216                  0          .04215

   Non-FTS Switched to Non-FTS Switched                   .02055         . 0216            .02055            .0627

Note:
(1) MCI has a single, postalized rate for all origination and termination access charges regardless of whether the call is a non-FTS
(Off-Net) call.
(2) We identified several differences between the FTS2001 rates listed on the CD ROM disk and the rates provided by GSA on
October 20, 1999. Using FDIC’s average monthly usage, we estimate the CD ROM-based rates would be about $521 a month
higher than the rates that MCI quoted to GSA. We used the CD ROM-based rates in our draft report calculations to be conservative.
                                                                                                                                       25
FTS2001--Sprint Prices


n   In September 1999, GSA also provided a CD ROM containing
    detailed Sprint FTS2001 pricing. The CD ROM-based prices appear
    in Table 7 on the following page.

n   During October 1999, Sprint representatives provided Sprint’s
    FTS2001 prices and pricing structure via e-mail.

n   During November 1999, we reconciled the prices provided by Sprint
    representatives to a Sprint FTS2001 pricing CD ROM. We identified
    minor differences between the pricing listed on the CD ROM disk and
    the pricing provided by the Sprint representatives via e-mail. Using
    FDIC’s average monthly usage, we estimate the e-mail-based rates
    would be about $150 a month higher than the CD ROM-based rates.
    To be conservative, we used the e-mail-based rates in our draft
    report calculations.
                                                                           26
FTS2001--Sprint Prices

  Table 7: Sprint FTS2001 CD ROM-Based Prices
   Type of Call                                Origination       Transport    Termination       Total
                                               Charge            Charge       Charge            Charge for
                                                                                                Call

   Outbound, Inbound, Calling Card

   Dedicated to Dedicated                                    0       .01517                 0         .01517

   Dedicated to FTS Switched                                 0       .01517         .0175(1)          .03267

   FTS Switched to Dedicated                         .0175(1)        .01517                 0         .03267

   FTS Switched to FTS Switched                      .0175(1)        .01517         .0175(1)          .05017

   Dedicated to Non-FTS Switched                             0       .01517           .01878          .03395

   Non-FTS Switched to Dedicated                       .01847        .01517                 0         .03364

   Non-FTS Switched to Non-FTS Switched                .01847        .01517           .01878          .05242

  Note:
  (1) Average per minute rate. Actual charge depends on the NPA/NXX for each call. The normal cost range for
  NPA/NXX is $.005 to $.04 per minute, with highly populated areas, such as Washington, D.C., being priced
  lower than rural areas. The Sprint CD contained prices for 64,700 NPA/NXX numbers.


                                                                                                               27
Reasonableness Testing


MCI
n   MCI’s FTS2001 prices were postalized and constant regardless of the
    origination or termination of the call. Therefore, we concluded there
    was no need to test the reasonableness of MCI FTS2001 prices that
    were used to project monthly costs in Table 1 on page 12.

Sprint
n For Sprint projected monthly costs, however, the information
   presented in Table 2 was based on average FDIC usage and average
   NPA/NXX-based prices. To test the reasonableness of using average
   usage and prices, we performed calculations using actual call detail
   information and actual FTS NPA/NXX-based prices.


                                                                            28
Reasonableness Testing


Sprint (continued)
n   We recalculated, by individual call, outbound charges for July 1999
    and inbound charges for June 1999 using NPA/NXX-specific
    FTS2001 pricing.

n   We used an audit database program to join FDIC electronic call
    detail reports (over 330,000 calls) with Sprint’s NPA/NXX rate
    database (64,700 prices).




                                                                          29
Reasonableness Testing


Sprint (continued)
n   We then recalculated actual usage for each call using three rate
    scenarios:

    (A) FTS2001 Off-Net prices (Non-FTS postalized prices)--These
    were the same prices that we used to calculate Sprint costs in
    Table 2.

    (B) FTS2001 NPA/NXX-based prices--About 30% of FDIC’s calls
    did not match Sprint’s table of NPA/NXX prices. In those instances
    we used the Off-Net prices from Scenario A.

    (C)   For each call, the greater of Scenario A or B.

                                                                         30
Reasonableness Testing

Sprint (continued)
                                                      Comparison of Scenarios for
n For outbound service, we                               Outbound Service
   identified a range of $3,211              40,000

   between scenarios A and C.                                                   $35,124
                                             35,000




                                   Dollars
                                                         $32,407   $31,913 $32,394
n   We concluded it was
                                             30,000
    reasonable to use average
    usage and prices to project
    monthly outbound costs for               25,000

                                               Table 2, page 21        (A) FTS Off-Net
    option year 3 of FDIC’s long               (B) FTS NPA/NXX         (C) Greater of A or B
    distance contract.




                                                                                               31
Reasonableness Testing

Sprint (continued)
n For inbound service, we                             Comparison of Scenarios for
                                                          Inbound Service
   identified a range of $5,917              55,000
                                                                                 $52,524
   between scenarios A and C.
                                             50,000                          $48,480




                                   Dollars
n   We concluded it was                                  $46,782   $46,607
    reasonable to use average                45,000
    usage and prices to project
    monthly inbound costs for
                                             40,000
    option year 3 of FDIC’s long
                                               Table 2, page 21        (A) FTS Off-Net
    distance contract.                         (B) FTS NPA/NXX         (C) Greater of A or B




                                                                                               32
Conclusions


n   FDIC’s long distance voice and video contract requires MCI to offer
    FDIC prices comparable to other MCI customers or otherwise
    available under a GSA schedule contract. We found that FTS2001
    prices available through MCI and Sprint were significantly lower than
    the prices MCI proposed for option year 3 of its contract with FDIC.
    Thus, the prices did not conform to the terms of the contract price
    warranty.

n   We estimated that if MCI honored the terms of the price warranty and
    adjusted FDIC’s prices to conform with prices available under
    FTS2001, FDIC would reduce monthly costs by $63,700 to $88,300
    per month, or from $1.53 million to $2.12 million, over the remaining
    2 years of the contract. Such a reduction would achieve program
    savings of 35 to 49 percent.
                                                                            33
Conclusions


n   After we completed our analyses, MCI proposed new per minute
    voice rates to DIRM for the long distance contract. Assuming that
    MCI honored the proposed rates for the remaining 2 years of the
    contract, we estimate that FDIC would save $32,825 a month, or
    about $787,800, a 18 percent reduction in program costs. Although
    MCI’s proposed pricing is lower than the existing contract pricing, the
    proposed pricing still does not meet the requirements of the contract
    price warranty.




                                                                              34
Recommendation


n   We recommended that the Associate Director, Acquisition and
    Corporate Services Branch, with consultation from the Legal Division
    and Division of Information Resources Management:

     (1) Pursue adjustments by MCI WorldCom to the prices it has
        offered for option year 3 of the FDIC Voice and Video Contract so
        the prices conform to the terms of the price warranty (Funds put to
        better use in the range of $1.53 million to $2.12 million).




                                                                              35
Corporation Comments and OIG Evaluation

n   The Associate Director, ACSB,     n   ACSB’s response indicated
    provided the Corporation’s            that it would: (1) perform a
    written response to a draft of        comparative analysis of the
    this report. The response is          services and costs between
    presented as Appendix I to this       FDIC’s existing contract with
    report. ACSB agreed with our          MCI and FTS2001, including
    recommendation. ACSB’s                the costs of transitioning to
    response, together with the           FTS2001, and (2)
    actions it has already taken,         communicate FDIC’s
    provides the requisites of a          understanding and
    management decision.                  expectations of the price
                                          warranty clause to MCI. FDIC
                                          will then renegotiate the
                                          contract with MCI based on the
                                          results of its analysis.

                                                                           36
Corporation Comments and OIG Evaluation

n   FDIC sent a letter to MCI, dated     n   Accordingly, we cannot
    December 17, 1999, requesting            quantify funds put to better
    that MCI incorporate its                 use from our
    FTS2001 rates into FDIC’s                recommendations at this time.
    contract.                                Should future ACSB actions
                                             result in program savings, we
n   Our draft report estimated funds         will report those monetary
    put to better use of $1.53 million       benefits in our Semiannual
    to $2.12 million. Management’s           Report to the Congress during
    response had no questioned               the appropriate report period.
    costs or recovery amount noted.
    We discussed this with
    management officials and they
    indicated that the $0 amount
    reflected the unknown outcome
    of its corrective action.
                                                                              37
Glossary

n   Outbound Calling Services. The MCI Voice and Video Contract
    provides for six types of outbound calls:
     – Dedicated to Dedicated Access services. Such as calls made from FDIC
       Headquarters to a Regional Office, or from a Regional Office to
       Headquarters or another Regional Office.
     – Dedicated to Switched Access services. Such as calls made from
       Headquarters or a Regional Office to a Field Office.
     – Switched to Dedicated Access services. Such as calls made from a Field
       Office to Headquarters or a Regional Office.
     – Switched to Switched Access services. Such as calls made from one
       Field Office to another Field Office.
     – Dedicated to Non-FDIC Number services. Such as calls from a
       Headquarters or Regional Office to a private residence.
     – Switched to Non-FDIC Number services. Such as calls from a Field Office
       to a private residence.

                                                                                 38
Glossary

n   Inbound Calling Services. The MCI Voice and Video Contract provides
    for two types of inbound calls using the 800 area code number system,
    Switched to Dedicated and Switched to Switched.
n   Calling Cards. The MCI Voice and Video Contract calling card services
    include a $0.25 charge each time the card is used in addition to the Dedicated
    or Switched per minute rate.
n   Federal Telecommunications System 2001 (FTS2001) Program.
    The FTS2001 Program provides long distance voice and data services to
    federal agencies. The General Services Administration (GSA) administers the
    FTS2001 Program and selected MCI and Sprint as the contractors to provide
    the long distance services to federal agencies. GSA awarded the Sprint
    contract in December 1998, and the MCI contract in January 1999.
n   Postalized Rates. Long distance telephone calls priced at a constant rate
    regardless of the origination, distance, or termination of the calls are referred
    to as postalized rates. MCI’s prices under FTS2001 and its contract with FDIC
    are postalized.

                                                                                        39
Glossary


n   NPA/NXX-Based Prices. NPA refers to the Numbering Plan Area, namely
    the Area Codes. NXX refers to the Exchange Area, the first three digits of a
    seven-digit local phone number. NPA/NXX-based prices for long distance
    telephone calls depend upon the originating and terminating points of the calls
    and whether the calls originate from or terminate to a non-FTS number.
    Sprint’s prices under FTS2001 are NPA/NXX-based prices.
n   On-Net. For FTS2001, on-net refers to a location that is pre-subscribed to
    any FTS2001 service (an FTS2001 customer).
n   Off-Net. For FTS2001, off-net is defined as a location that is not pre-
    subscribed to any FTS2001 service.




                                                                                      40
Appendix I: Corporation Comments




                                   41
Appendix I: Corporation Comments




                                   42
Appendix I: Corporation Comments




                                   43
Appendix II: Management Response to
Recommendations

This table presents the management responses that have been made on the recommendation in our
report and the status of management decisions. The information for management decisions is
based on ACSB’s written response to our draft report.



                                 Expected or    Documentation                   Management
 Rec.                              Actual          that will       Monetary      Decision:
 Number    Corrective Action:    Completion     Confirm Final      Benefits      Yes or No
           Taken or Planned         Date            Action
           / Status

     1     ACSB issued a           12/17/99     Letter to MCI         To be        Yes
           letter to MCI                        requesting         determined
           requesting that MCI                  FTS2001 pricing.
           honor the terms of    January 2000
           the contract price                   Documented
           warranty and                         comparative
           provide FDIC with                    analysis.
           FTS2001 pricing
           levels.

           ACSB will also
           perform a
           comparative
           analysis of the
           services and costs
           between FDIC’s
           existing contract
           with MCI and
           FTS2001.


                                                                                                44
